HHS/OIG-Audit--"Review of Unfunded Pension Costs of AdminaStar Federal, (A-07-98-01224)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of AdminaStar Federal," (A-07-98-01224)
October 15, 1998
Complete Text of Report is available in PDF format
(941 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of AdminaStar Federal. AdminaStar Federal (Kentucky) did not make contributions
to the pension trust fund for Plan Years 1988 through 1993 and 1995. Accordingly,
Kentucky did not fund the pension costs identifiable with its Medicare segment
during this period. As a result, Kentucky accumulated unfunded pension costs
of $4,286,294 as of January 1, 1996. Kentucky must separately identify and eliminate
this amount from the amortization components of future pension costs. The auditee
did not provide a response to our report.